~

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Reply Brief for Petitioners in 20-1093, Just
Energy Marketing Corp., et al., v. Davina Hurt and
Dominic Hill, individually and on behalf of all others
similarly situated, was sent via Next Day Service to
the U.S. Supreme Court, and 3 copies were sent Next
Day and via e-mail service to the following parties
listed below, this 17th day of May, 2021:
Neal Kumar Katyal
Hogan Lovells US LLP
555 Thirteenth St., N.W.
Washington, DC 20004
(202) 637-5528
neal.katyal@hoganlovells.com
Counsel for Respondents
Paul D. Clement
Counsel of Record
George W. Hicks, Jr.
Michael D. Lieberman
Kirkland & Ellis LLP
1301 Pennsylvania Avenue, NW
Washington, DC 20004
(202) 389-5000
pa ul.clement@kirkland.com

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

I

8790 Governor's Hill Drive

Franklin Square

Suite 102

1300 I Street, NW, Suite 400E

Cincinnati, Ohio 45249

Washington, DC 20005

Shannon K. Patton
Edward H. Chyun
Alex R. Frondorf
Littler Mendelson, P.C.
1100 Superior Ave.
20th Floor
Cleveland, 0 H 44114
Bradley A. Sherman
Sherman Boseman Legal Group LLC
800 W. St. Clair Ave.
4th Floor
Cleveland, OH 44114
Kevin M. Neylan, Jr.
Kirkland & Ellis LLP
601 Lexington Ave.
New York, NY 10022
Counsel for Petitioners

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on May 17, 2021.

C-a r11~

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date: ·

Sf! J /1= 1

[seal]

AMY TRIPLETT MORGAN

Attorney at Law
Notary Public, State ol Ohio
My Commission Has·No Expiration
Date. Section 147.03 0.R.C.

